                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                             Three Lafayette Centre
                                  1155 21st Street, NW, Washington, DC 20581
                                          Telephone: (202) 418-5110
                                           Facsimile: (202) 418-5522



   Office of the
Inspector General



        TO:             Sharon Brown-Hruska
                        Acting Chairman

        FROM:           A. Roy Lavik
                        Inspector General

        DATE:           November 12, 2004

        SUBJECT:        Inspector General’s Assessment Of The Most Serious Management
                        Challenges Facing CFTC.


       This letter is submitted in response to an October 18, 2002 memorandum from Mark Everson,
       Deputy Director for Management of the Office of Management and Budget. Part III of that
       memorandum entitled, “Financial Section (c) An Inspector General (IG) Summary of Serious
       Management Challenges” requires the Inspector General to provide a summary of the
       management challenges facing the agency that the IG considers to be serious and a brief
       assessment of the agency's progress in addressing those challenges.

       Background

       On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000 to provide
       financial and performance information in a more meaningful and useful format for Congress, the
       President, and the public. Included in the Act is the requirement that the Inspector General of
       each Federal agency summarize what he or she considers to be the most serious management and
       performance challenges facing the agency and assess the agency’s progress in addressing those
       challenges. In accordance, with the Reports Consolidation Act of 2000, I am submitting, for the
       first time, my annual assessment of the major management challenges confronting the
       Commodity Futures Trading Commission (CFTC).

       Congress left the determination and threshold of what constitutes a most serious challenge to the
       discretion of the Inspector General. As a result, I applied the following definition in preparing
       my statement:

               Serious management challenges are mission critical area or programs that have the
               potential for a perennial weakness or vulnerability that, without substantial management
               attention, would seriously impact agency operations or strategic goals.
In Fiscal Year 2002, Congress passed the Accountability of Tax Dollars Act. This Act requires
CFTC, along with numerous other federal entities, to have its financial statements audited
annually. Fiscal Year 2004 is the first fiscal year that the CFTC’s financial statements were
audited. On January 15, 2004 the Office of Inspector General (OIG) hired an independent public
accounting firm, KPMG, to conduct an audit of the CFTC’s financial statements. I am pleased to
say that the audit resulted in an unqualified audit opinion. This letter relied on the data contained
in the audited financial statements as well as the agency’s Performance and Accountability
Report (PAR).

Serious Management Challenges

The OIG reviewed all the management challenges listed by program areas as well as external
challenges mentioned in the PAR. As a result of our review, the OIG concludes that
management fairly stated the challenges faced by the agency and identified in the PAR.
Nonetheless, the OIG identifies two management challenges that we consider to be the most
serious management challenges facing the agency. Although the PAR identified challenges by
program areas, the OIG adopted a broader, agency-wide, perspective in selecting two summary
management challenges.

We have combined the agency’s Challenges in the Marketplace and Technological Challenges
into one challenge that we describe as Technological Responses To Industry Dynamics. In
addition, Human Resource Planning to achieve Optimal Staffing (stated in the PAR) is the
second of the two management challenges that the OIG considers to be the most serious
management challenges facing the CFTC. These two management challenges in no way
diminish other challenges identified by the agency but they ought to guide the agency’s efforts in
the near future.

I. Technological Responses To Industry Dynamics

In the last decade, 815 new futures and option contracts were approved or certified by the CFTC.
During that same time period exchange traded futures and options volume has dramatically
increased to over one billion futures and options contracts traded annually on exchanges
monitored by the CFTC. During the same period and continuing into the foreseeable future, it is
doubtful that the agency’s budget will experience an equal increase. Consequently, the OIG’s
concern is that management ought to devote the necessary resources to dramatically improve its
use of technology to assist existing and future employees with their oversight responsibilities
mandated by the Commodity Futures Modernization Act of 2000 (CFMA)

The CFMA under section 3(b) charged the agency with the promotion of responsible innovation
and fair competition. Our review of the PAR leads us to conclude that the novel and complex
issues raised by this mandate will challenge the agency to efficiently use its skilled economists
and attorneys to evaluate innovative products likely to be introduced to the marketplace --
possibly via an electronic trading platform. Furthermore, the OIG recognizes that the agency has
responded to this challenge by initiating the development of a new integrated surveillance system
with the goal of increasing the productivity of staff in the Division of Market Oversight and
Division of Enforcement. Such quick response is to be applauded; however, all new systems are



                                                 2
fraught with the danger of delays and incorrect specifications, especially a new electronic market
surveillance system for a rapidly growing industry such as the futures and options industry. The
OIG will actively monitor management’s efforts to deliver an effective technological solution to
meet its mandates under the CFMA.

Critical and appropriate observation by the OIG can spur the agency to embrace and successfully
meet the technological challenges it faces from continued success of exchange traded futures and
options products. In fact, the OIG has worked, proactively, with the Division of Enforcement in
its efforts to adopt the electronic enforcement modernization project–E-Law, which will
significantly increase the productivity of CFTC attorneys. The agency will soon adopt a new
Asset Management Program to manage agency’s assets throughout their lifecycle from
requisition to surplus, which should aid the agency to save time, money, and safeguard its assets.
This proposed electronic Asset Management system is a direct remedy for a finding (Lack Of
Internal Controls For Fixed Assets) in the financial statement audit issued concurrently with this
letter.

II. Human Resource Planning

By March 2006, current estimates are that over twenty percent of CFTC staff will be eligible for
retirement. This is a significant problem which requires a great deal of planning. The OIG is
heartened by the agency’s decision to establish a Human Capital Team and engage a consulting
firm to assist it to catalogue current skills of existing employees and propose possible pathways
for meeting this potential deficit that is likely to occur in Fiscal Year 2006.

In accordance with GAO’s challenge to the executive branch to extend its evaluative horizon, the
OIG is challenging this agency to focus not just on the present fiscal year human resource needs
but broaden its evaluative envelope to include future trends and challenges. Proper succession
planning and management efforts can help an organization become what it needs to be, rather
than simply to recreate the existing organization. The agency must focus on strengthening both
current and future organizational capacity to meet future externally imposed challenges. It must
address specific human capital challenges, such as diversity, leadership capacity, and retention.
Also, as stated in the PAR, the agency is challenged to effectively coordinate its staff with other
government agencies, such as, the Department of the Treasury and the Securities and Exchange
Commission.

In summary, the OIG’s review of the PAR and familiarity with the organization lead us to
conclude that the agency has clearly recognized the management challenges it is likely to face in
Fiscal Year 2005. We believe that plans presently in place can properly address the challenges
stated in the PAR. We look forward to evaluating the success of the agency in satisfying its
regulatory mandates.




                                                3
